JESSICA L. ADAIR

AARON D. FORD

Chief of Staff

Attorney General

LESLIE NINO PIRO

KYLE E. N. GEORGE

General Counsel

First Assistant Attorney General

CHRISTINE JONES BRADY
Second Assistant Attorney General

STATE OF NEVADA

HEIDI PARRY STERN

OFFICE OF THE ATTORNEY GENERAL

Solicitor General

100 North Carson Street
Carson City, Nevada 89701

August 4, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Smith v. Russell, No. 20-8101 ***CAPITAL CASE***
Dear Mr. Harris,
I write in behalf of Respondents in the above captioned matter to request an
extension of the time to file a brief in opposition to the petition for writ of certiorari.
Respondents request a 21-day extension of the current deadline of August 5, 2021,
extending the time to file the brief in opposition to August 26, 2021. This is
Respondents second request for an extension. Counsel for the Petitioner indicated that
they do not oppose the extension.
The requested extension is necessary and proper. In addition to the normal press
of business and working on this matter, in the last month, I have been particularly busy
with preparation of the brief in opposition in Cates v. Stroud, No. 20-1438, assisting
with prosecuting an appeal challenging the entry of a preliminary injunction in Floyd v.
Daniels, 21-16134 (9th Cir.), and appearing for the defendants at a hearing on a motion
for preliminary injunction in Palmer v. Sisolak, 3:21-cv-00268-MMD-WGC (D. Nev.), an
action challenging state legislation on self-manufactured firearms under the Second
Amendment.
Sincerely,
/s/ Jeffrey Morgan Conner
Jeffrey Morgan Conner (NV Bar No. 11543)
Deputy Solicitor General
Counsel for Respondents
cc: David Severen Anthony, Counsel for Petitioner (via electronic mail)

Telephone: 775-684-1100 ● Fax: 775-684-1108 ● Web: ag.nv.gov ● E-mail: aginfo@ag.nv.gov
Twitter: @NevadaAG ● Facebook: /NVAttorneyGeneral ● YouTube: /NevadaAG

